No.
THE SUPREME COURT OF THE UNITED STATES
IN THE
DISTRICT OF COLUMBIA

MARIE JOY TANAMOR- STEFFAN
PETITIONER

vs.
WILLIAM BARR, ATTY. GENERAL, CHAD WOLF, SECRETARY OF
DEPARTMENT OF HOMELAND SECURITY, GARY CHAMBERLAIN,
FIELD OFFICE DIRECTOR OF NEW ORLEANS US ICE

PETITION FOR WRIT OF HABEAS CORPUS
PROOF OF SERVICE
I, Marie Joy Tanamor-Steffan, do swear that on this day, November 11. 2020 as
required by the Supreme Court Rule 29.1 have served the enclosed PETITION FOR
WRIT OF HABEAS CORPUS, on each party to the above proceeding or the party's
counsel and on every person required to be served, by depositing an envelope containing
the above documents in the United States mail properly address to each of them and
with first class postage prepaid, or delivery to a third party commercial carrier for
delivery within 3 calendar days.
The name and addresses are as follows:
1. Respondent William Barr is named in his official capacity as the Attorney
General of the United States of America. His address is United States Attorney General,
Department Of Justice, 950 Pennsylvania Ave. NW, Washington DC 20530-0001.

15.

2. Respondent Chad Wolf is named in his official capacity as the secretary of
the DHS. His address is MS-0285, Department Of Homeland Security.
2707 Martin Luther King Jr, Avenue. SE, Washington DC 20528-525.
3. Respondent Gary Chamberlain is named in his official capacity as the ICE
Field Office Director of New Orleans. His address is 1250 Poydras St.
Suite 325, New Orleans LA 70113.

Executed On: 11.11.2020

Respectfully Submitted,

Marie Joy Tanamor- Steffan
072733411
3843 Stagg Avenue
Basile, LA 70515

16.

